Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    MONITORING MEDICARE 

     PART B DRUG PRICES: 

  A COMPARISON OF AVERAGE 

  SALES PRICES TO AVERAGE 

    MANUFACTURER PRICES





                    Daniel R. Levinson

                    Inspector General 


                       April 2006

                     OEI-03-04-00430

                    Office of Inspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide the HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness in departmental programs. To promote impact, the reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
I N T R O D        U C T             I O N
Δ    E X E C U T I V E                                       S U M M A R Y                                               



                    OBJECTIVE
                    To determine whether average sales prices (ASP) for individual
                    Medicare Part B prescription drugs exceed average manufacturer prices
                    (AMP) by at least 5 percent.


                    BACKGROUND
                    Expenditures for Medicare Part B drugs have tripled over the past
                    several years, increasing from approximately $3.3 billion in 1998 to over
                    $10 billion in 2004. In 2005, Medicare Part B began paying for most
                    covered drugs using a new methodology based on ASPs. Manufacturers
                    report ASPs by national drug code (NDC) and must provide the Centers
                    for Medicare & Medicaid Services (CMS) with the ASP and volume of
                    sales for each of their NDCs on a quarterly basis.1
                    Although manufacturers submit ASP data by NDCs, CMS does not
                    reimburse Medicare providers for drugs using NDCs. Instead, CMS
                    uses Healthcare Common Procedure Coding System (HCPCS) codes.2
                    More than one NDC may meet the definition of a particular HCPCS
                    code; therefore, CMS uses NDC-level information submitted by the
                    manufacturers to calculate an ASP for each covered HCPCS code.
                    When CMS calculates payment amounts for HCPCS codes, it must
                    weight ASPs at the NDC level by the amount of the drug sold during the
                    quarter. Under the ASP pricing methodology, Medicare’s allowance for
                    most Part B drug codes is equal to 106 percent of the volume-weighted
                    ASPs for those HCPCS codes.

                    However, according to a recent Office of Inspector General (OIG) report
                    entitled “Calculation of Volume-Weighted Average Sales Price for
                    Medicare Part B Prescription Drugs” (OEI-03-05-00310), the way that
                    CMS calculates a volume-weighted ASP is incorrect. In that report, we
                    proposed an alternate method for calculating a volume-weighted ASP
                    and recommended that CMS adopt this alternate method for calculating
                    volume-weighted ASP.




                    1An NDC is an 11-digit identifier that indicates the manufacturer, the product dosage form,
                     and the package size of a drug.
                    2CMS established the HCPCS to provide a standardized coding system for describing the
                     specific items and services provided in the delivery of health care.



 OEI-03-04-00430    C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                       i
E X E C U T I V E                        S U            M M A R Y


                   Section 1847A(d)(2)(B) of the Social Security Act (the Act) mandates
                   that OIG compare ASPs with AMPs.3 Pursuant to section 1847A(d)(3)
                   of the Act, the Secretary of the Department of Health and Human
                   Services may disregard the ASP for a drug or biological that exceeds the
                   AMP for the product by at least 5 percent.

                   For this inspection, we obtained CMS’s volume-weighted ASPs for the
                   first quarter of 2005, which it calculated based on data submitted by
                   manufacturers for the third quarter of 2004. We also obtained AMP
                   data from CMS from the third quarter of 2004. We used these AMP
                   data to calculate volume-weighted AMPs using both CMS’s and OIG’s
                   methods. Ultimately, we compared volume-weighted ASPs to volume-
                   weighted AMPs for 364 HCPCS codes, and identified codes for which
                   the ASP exceeded the AMP by at least 5 percent according to either
                   CMS’s calculation or OIG’s calculation.


                   FINDING
                   ASPs for certain HCPCS codes exceeded AMPs by at least
                   5 percent; however, the HCPCS codes that met the threshold
                   differed depending on the method used to calculate volume-
                   weighted ASP and AMP. Based on our analysis of data from the third
                   quarter of 2004, a total of 51 HCPCS codes had an ASP that exceeded
                   the AMP by at least 5 percent as a result of CMS’s calculation.
                   However, according to OIG’s method for calculating volume-weighted
                   ASPs and AMPs, only 38 HCPCS codes met the 5-percent threshold.
                   For 34 HCPCS codes, the volume-weighted ASPs exceeded the volume-
                   weighted AMPs by at least 5 percent regardless of whether CMS’s or
                   OIG’s calculation was used. An additional 4 HCPCS codes met the
                   5-percent threshold using OIG’s calculation but not CMS’s calculation.
                   Another 17 HCPCS codes met the 5-percent threshold using CMS’s
                   calculation but not OIG’s calculation.


                   SUMMARY
                   For the purpose of monitoring new prices based on ASPs, sections
                   1847A(d)(2)(B) and 1847A(d)(3) of the Act mandate that OIG perform
                   comparisons between ASPs and AMPs to identify drugs for which the
                   ASP exceeds the AMP by at least 5 percent. This review is the first of

                   3CMS collects AMPs as part of its Medicaid rebate agreements with manufacturers and as
                     required by section 1927 of the Act.


 OEI-03-04-00430   C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                      ii
E X E C U T I V E                        S U            M M A R Y


                   such comparisons. We found that certain HCPCS codes did, in fact,
                   meet the 5-percent threshold specified in the Act. However, the number
                   of codes that met the threshold, and the monetary differences between
                   ASPs and AMPs for those codes, depended on the method used to
                   calculate volume-weighted ASPs and volume-weighted AMPs. Although
                   34 HCPCS codes met the 5-percent threshold regardless of whether
                   CMS’s or OIG’s calculation was used, other codes only met the threshold
                   using one calculation or the other.

                   Pursuant to section 1847A(d)(3) of the Act, the Secretary has authority
                   to lower the reimbursement amount for a drug with an ASP that
                   exceeds the AMP by the 5-percent threshold. Therefore, differences
                   between the results of CMS’s calculation and OIG’s calculation could
                   affect whether published reimbursement amounts for certain Medicare
                   Part B drugs are adjusted. This, in turn, affects manufacturers,
                   providers, and Medicare beneficiaries. It is therefore critical that CMS
                   modify its calculation as soon as possible, both to ensure that
                   reimbursement amounts are calculated correctly and to ensure that
                   future comparisons between ASPs and AMPs yield the most meaningful
                   results.


                   AGENCY COMMENTS
                   Overall, CMS indicated that the information in our report is helpful in
                   its continuing efforts to monitor payment adequacy under the ASP
                   methodology. However, CMS noted that OIG’s review was conducted
                   using data submitted during the initial implementation phase of the
                   ASP methodology. According to CMS, much of the estimated savings
                   identified in the report did not persist in subsequent quarters, and
                   payment limits for many codes have since been revised.

                   Although CMS acknowledges the Secretary’s authority to adjust the
                   ASP payment limits when certain conditions are met, it believes that
                   other issues should be considered, including the timing and frequency of
                   pricing comparisons, stabilization of ASP reporting, the effective date
                   and duration of rate substitution, and the accuracy of the ASP and AMP
                   data.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   This report found that comparisons between ASPs and AMPs yield
                   different results depending on the method used to calculate volume-
                   weighted ASPs and volume-weighted AMPs. Although CMS indicated

 OEI-03-04-00430   C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                      iii
E X E C U T I V E                        S U            M M A R Y


                   that our report is helpful, CMS’s comments on the draft report
                   addressed neither the incorrect calculation nor the impact that it has on
                   the comparison between ASPs and AMPs. We continue to believe that
                   CMS is calculating volume-weighted ASPs incorrectly, and that this
                   incorrect calculation results in reimbursement amounts that are
                   inaccurate and inconsistent with the ASP payment methodology set
                   forth in section 1847A(b) of the Act. Furthermore, we believe that the
                   incorrect calculation affects the results of mandated comparisons
                   between ASPs and AMPs, and could continue to do so in the future.

                   We acknowledge CMS’s concern that our findings should be examined in
                   light of other important considerations. However, we are unsure of
                   what, if any, specific steps CMS plans to take as a result of the report.




 OEI-03-04-00430   C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                      iv
Δ   T A B L E            O F            C O N T E N T S                                   




         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         INTRODUCTION ................................................ 1




         FINDING ......................................................... 8

                     Results of Comparisons Between ASPs and AMPs . . . . . . . . . . . . . 8 



         S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                     Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                     Office of Inspector General Response . . . . . . . . . . . . . . . . . . . . . . 12 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                     A: 	Equations Used by CMS and OIG to Calculate Volume-

                         Weighted ASPs and AMPs . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                     B: 	Thirty-four HCPCS Codes With an ASP That Exceeded 

                         the AMP by at Least 5 Percent Regardless of Whether

                         CMS’s or OIG’s Calculation Was Used. . . . . . . . . . . . . . . . . . . 14 


                     C: 	Four HCPCS Codes With an ASP That Exceeded the AMP 

                         by at Least 5 Percent Using OIG’s Calculation but not 

                         CMS’s Calculation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                     D: 	Seventeen HCPCS Codes With an ASP That Exceeded 

                         the AMP by at Least 5 Percent Using CMS’s Calculation 

                         but not OIG’s Calculation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                     E: 	Centers for Medicare & Medicaid Services’ Comments . . . . . . 17 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

Δ   I N T R O D U C T I O N                                                         



                  OBJECTIVE
                  To determine whether average sales prices (ASP) for individual
                  Medicare Part B prescription drugs exceed average manufacturer prices
                  (AMP) by at least 5 percent.


                  BACKGROUND
                  Medicare Part B Coverage of Prescription Drugs
                  Medicare Part B covers only a limited number of outpatient prescription
                  drugs. Covered drugs include injectable drugs administered by a
                  physician; certain self-administered drugs, such as oral anticancer
                  drugs and immunosuppressive drugs; drugs used in conjunction with
                  durable medical equipment; and some vaccines.
                  Medicare Part B Payments for Prescription Drugs
                  The Centers for Medicare & Medicaid Services (CMS) contracts with
                  private companies, known as carriers, to process and pay Medicare Part
                  B claims, including those for prescription drugs. Claims for drugs that
                  are used with medical equipment are typically processed by one of four
                  durable medical equipment regional carriers (DMERC). Claims for
                  other types of covered drugs are processed by local carriers. To obtain
                  reimbursement for covered outpatient prescription drugs, physicians
                  and suppliers submit claims using procedure codes that are associated
                  with covered drugs. CMS established the Healthcare Common
                  Procedure Coding System (HCPCS) to provide a standardized coding
                  system for describing the specific items and services provided in the
                  delivery of health care. Each HCPCS code for outpatient prescription
                  drugs defines the drug name and dosage size but does not specify
                  manufacturer information or package size data.

                  Expenditures for Part B drugs have tripled over the past several years,
                  increasing from approximately $3.3 billion in 1998 to over $10 billion in
                  2004. Although Medicare covers over 550 outpatient prescription drug
                  HCPCS codes, the majority of spending for Part B drugs is concentrated
                  on a relatively small subset of those codes. In 2004, 43 codes
                  represented 90 percent of the expenditures for Part B drugs, with only
                  9 of these drugs representing half of the total Part B drug expenditures.




OEI-03-04-00430   C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                     1
I N T R O D        U C T             I O N


                    Reimbursement Methodology for Part B Drugs and Biologicals in 2005
                    In 2005, Medicare began paying for most drugs using an entirely new
                    methodology based on ASPs.1 Section 1847A(c) of the Social Security
                    Act (the Act), as added by the Medicare Prescription Drug,
                    Improvement, and Modernization Act of 2003 (MMA), Public Law 108
                    173, defines an ASP as a manufacturer’s sales of a drug to all
                    purchasers in the United States in a calendar quarter divided by the
                    total number of units of the drug sold by the manufacturer in that same
                    quarter. The ASP is net of any price concessions such as volume
                    discounts, prompt pay discounts, and cash discounts; free goods
                    contingent on purchase requirements; chargebacks; and rebates other
                    than those obtained through the Medicaid drug rebate program. Sales
                    that are nominal in amount are exempted from the ASP calculation, as
                    are sales excluded from the determination of “best price” in the
                    Medicaid drug rebate program.2,3
                    Manufacturers report ASPs by national drug codes (NDC), which are
                    11-digit identifiers that indicate the manufacturer of the drug, the
                    product dosage form, and the package size. Manufacturers must
                    provide CMS with the ASP and volume of sales for each NDC on a
                    quarterly basis, with submissions due 30 days after the close of each
                    quarter.4
                    Given that Medicare reimbursement for outpatient drugs is based on
                    HCPCS codes rather than NDCs, and that more than one NDC may
                    meet the definition of a particular HCPCS code, CMS has developed a
                    file that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
                    information in this crosswalk to calculate volume-weighted ASPs for
                    covered HCPCS codes.
                    Third-quarter 2004 ASP submissions from manufacturers served as the
                    basis for first-quarter 2005 Medicare allowances for most covered drug
                    codes. Under the ASP pricing methodology, the Medicare allowance for

                    1For 2004, the reimbursement amount for most covered drugs was based on 85 percent of

                     the average wholesale price (AWP) as published in national pricing compendia such as the
                     “Red Book.” Prior to 2004, Medicare Part B reimbursed for covered drugs based on the
                     lower of either the billed amount or 95 percent of the AWP.
                    2Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available
                     from the manufacturer during the rebate period to any wholesaler, retailer, provider,
                     health maintenance organization, nonprofit entity, or governmental entity within the
                     United States, with certain exceptions.
                    3Section 1847A(c) of the Act.
                    4Section 1927(b)(3) of the Act.




 OEI-03-04-00430    C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                       2
I N T R O D        U C T             I O N


                    most Part B drugs is equal to 106 percent of the ASP for the HCPCS
                    code. Medicare beneficiaries are responsible for 20 percent of this
                    amount in the form of coinsurance.
                    The Medicaid Drug Rebate Program and AMPs
                    In order for Federal payment to be available for outpatient drugs
                    covered under Medicaid, sections 1927(a)(1) and (b)(1) of the Act
                    mandate that drug manufacturers enter into rebate agreements with
                    the Secretary of the Department of Health and Human Services
                    (Secretary) and pay quarterly rebates to State Medicaid agencies.
                    Under these rebate agreements, and pursuant to section 1927(b)(3) of
                    the Act, manufacturers must provide CMS with the AMP for each of
                    their NDCs on a quarterly basis. As defined in section 1927(k)(1) of the
                    Act, the AMP is the average unit price paid to the manufacturer by
                    wholesalers in the United States for drugs distributed to the retail
                    pharmacy class of trade, minus customary prompt pay discounts. The
                    AMP is calculated as a weighted average of prices for all of a
                    manufacturer’s package sizes of a drug sold during a given quarter, and
                    is reported for the lowest identifiable quantity of the drug (e.g., 1
                    milligram, 1 milliliter, one tablet, one capsule).
                    Office of Inspector General’s Monitoring of ASPs and AMPs
                    Section 1847A(d)(2)(B) of the Act mandates that the Office of Inspector
                    General (OIG) compare ASPs with AMPs. If OIG determines that the
                    ASP for a drug exceeds the AMP by at least 5 percent, the Secretary has
                    authority to substitute the payment amount for that drug product with
                    103 percent of the AMP for the drug.5
                    Related Work by the Office of Inspector General
                    Section 303(c)(3) of MMA also mandated that OIG determine whether
                    physician practices in the specialties of hematology, hematology/
                    oncology, and medical oncology could obtain drugs and biologicals for
                    the treatment of cancer patients at 106 percent of the ASP. OIG
                    completed this study in September 2005 and issued the report,
                    “Adequacy of Medicare Part B Drug Reimbursement to Physician
                    Practices for the Treatment of Cancer Patients,” (A-06-05-00024).
                    According to this report, physician practices in the specialties of
                    hematology, hematology/oncology, and medical oncology could generally
                    purchase drugs for the treatment of cancer patients at or below the
                    reimbursement rate established under the ASP payment methodology.

                    5Section 1847A(d)(3) of the Act.




 OEI-03-04-00430    C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                       3
I N T R O D        U C T             I O N


                    Recently, OIG issued another report discussing the method CMS uses to
                    calculate a reimbursement amount for a HCPCS code. This report will
                    be described in greater detail in the Methodology.


                    METHODOLOGY
                    We obtained CMS’s volume-weighted ASPs for the first quarter of 2005,
                    which it calculated based on NDC-level data submitted by
                    manufacturers for the third quarter of 2004. In addition, we obtained
                    the file that CMS used to crosswalk NDCs to their corresponding
                    HCPCS codes. Both the volume-weighted ASPs and the crosswalk file
                    were updated as of January 13, 2005. We also obtained AMP data from
                    CMS for the third quarter of 2004.
                    Calculation of Volume-Weighted Average Sales Price
                    As mentioned previously, Medicare does not base reimbursement for
                    covered drugs on NDCs; instead, it uses HCPCS codes. Therefore, CMS
                    uses the ASP information submitted by manufacturers for each NDC to
                    calculate a volume-weighted ASP for each covered HCPCS code. When
                    calculating these volume-weighted ASPs, CMS only includes NDCs with
                    ASP submissions that are deemed valid. We did not examine the NDCs
                    that CMS opted to exclude from its calculation, nor did we verify the
                    accuracy of CMS’s crosswalk files.

                    As of January 13, 2005, CMS had established prices for 459 HCPCS
                    codes based on the ASP reimbursement methodology. This total
                    excludes HCPCS code J3490, which is defined as “unclassified drugs.”
                    Reimbursement amounts for the 459 HCPCS codes were based on ASP
                    data for 2,399 NDCs.

                    To calculate the volume-weighted ASPs for these 459 codes, CMS used
                    an equation that involves the following variables: the ASP for the NDC
                    as reported by the manufacturer, the volume of sales for the NDC as
                    reported by the manufacturer, and the number of billing units in the
                    NDC as determined by CMS. The amount of the drug contained in an
                    NDC may differ from the amount of the drug specified by the HCPCS
                    code that providers use to bill Medicare. Therefore, the number of
                    billing units in an NDC describes the number of HCPCS code units that
                    are in that NDC. For instance, an NDC may contain a total of
                    10 milliliters of Drug A, but the corresponding HCPCS code may be
                    defined as only 5 milliliters of Drug A. In this case, there are two billing
                    units in the NDC. CMS calculates the number of billing units in each
                    11-digit NDC when developing its crosswalk files. A more detailed

 OEI-03-04-00430    C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                       4
I N T R O D        U C T             I O N


                    description of CMS’s method of calculating volume-weighted ASP is
                    provided in Appendix A.

                    In a recent OIG report entitled “Calculation of Volume-Weighted
                    Average Sales Price for Medicare Part B Prescription Drugs” (OEI-03
                    05-00310), OIG stated that CMS’s method for calculating volume-
                    weighted ASP is incorrect because CMS does not use billing units
                    consistently throughout its equation. As a result, many HCPCS codes
                    have a reimbursement amount that is higher or lower than the amount
                    that would have been calculated if billing units were used consistently.
                    In the above-referenced report, OIG proposed an alternate equation that
                    we believe uses billing units correctly. We used this equation to
                    calculate an alternate volume-weighted ASP for each of the 459 HCPCS
                    codes. To determine what the Medicare reimbursement amount would
                    be according to OIG’s calculation, we then multiplied OIG’s volume-
                    weighted ASPs for the 459 codes by 1.06. A more detailed description of
                    OIG’s calculation is presented in Appendix A.
                    Analysis of Average Manufacturer Price Data
                    An AMP is reported for the lowest identifiable quantity of the drug
                    contained in the NDC (e.g., 1 milligram, 1 milliliter, one tablet, one
                    capsule). In contrast, an ASP is reported for the entire amount of the
                    drug contained in the NDC (e.g., for 50 milliliters, for 100 tablets). To
                    ensure that the AMP would be comparable to the ASP, it was necessary
                    to convert the AMP for each NDC so that it represented the total
                    amount of the drug contained in that NDC.

                    In making these conversions, we examined AMPs only for those
                    2,399 NDCs that CMS used in its calculation of volume-weighted ASP
                    for the 459 HCPCS codes. If AMP data were not available for one or
                    more of these NDCs, we excluded the corresponding HCPCS code from
                    our analysis. Ultimately, we excluded 80 HCPCS codes (718 NDCs).
                    The other 379 HCPCS codes had AMP data for every NDC that CMS
                    used in its calculation of volume-weighted ASPs. These 379 HCPCS
                    codes represented 1,681 NDCs.

                    We then multiplied the AMPs for these 1,681 NDCs by the total amount
                    of the drug contained in each NDC, as identified by sources such as the
                    CMS crosswalk file, the “Red Book,” manufacturer Web sites, and the
                    Food and Drug Administration’s NDC directory. We will refer to the
                    resulting amounts as converted AMPs. For 27 NDCs, we could not
                    successfully identify the amount of the drug reflected by the ASP and
                    therefore could not calculate a converted AMP. These 27 NDCs were

 OEI-03-04-00430    C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                       5
I N T R O D        U C T             I O N


                    crosswalked to 15 HCPCS codes. We did not include these 15 HCPCS
                    codes (140 NDCs) in our final analysis.

                    Using the converted AMPs for the remaining 1,541 NDCs, we then
                    calculated two different volume-weighted AMPs for each of the codes:
                    one using the method that CMS used to calculate a volume-weighted
                    ASP, and the other using the method that OIG used to calculate a
                    volume-weighted ASP. We calculated volume-weighted AMPs for a
                    total of 364 HCPCS codes. We did not verify the accuracy of
                    manufacturer-reported ASP and AMP data.
                    Comparing Volume-Weighted ASPs to Volume-Weighted AMPs
                    For each of the 364 HCPCS codes included in our study, we then
                    compared the volume-weighted ASPs and AMPs that resulted from
                    CMS’s calculation. We also compared the volume-weighted ASPs and
                    AMPs that resulted from OIG’s calculation. We identified codes with an
                    ASP that exceeded the AMP by at least 5 percent according to either
                    CMS’s or OIG’s calculation.

                    For those HCPCS codes that met or exceeded the 5-percent threshold,
                    we conducted a review of the associated NDCs to verify the accuracy of
                    the billing units information. According to our review, eight of the
                    codes that met the 5-percent threshold had associated NDCs with
                    potentially inaccurate billing units.6 Given that volume-weighted ASPs
                    and AMPs were calculated using this billing unit information, we could
                    not be certain that the results for these eight codes were correct.
                    Therefore, we did not include these eight codes in our findings.

                    For the remaining HCPCS codes, which both met the 5-percent
                    threshold and had NDCs with accurate billing units, we then estimated
                    the monetary impact of lowering reimbursement to 103 percent of the
                    AMP.7 For each of the HCPCS codes that met the 5-percent threshold
                    using CMS’s equation, we calculated 103 percent of CMS’s volume-
                    weighted AMP and subtracted this amount from the first-quarter 2005
                    reimbursement amount for the HCPCS code, which is equal to
                    106 percent of CMS’s volume-weighted ASP. For each of the codes that
                    met the 5-percent threshold using OIG’s calculation, we subtracted


                    6NDCs for these eight codes had billing unit information in CMS’s crosswalk file that may
                     not have accurately reflected the number of billing units actually contained in the NDC.
                    7Pursuant to section 1847A(d)(3) of the Act, if OIG determines that the ASP for a drug
                      exceeds the AMP by a threshold of 5 percent, the Secretary has authority to substitute the
                      ASP-based payment with 103 percent of AMP.



 OEI-03-04-00430    C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                       6
I N T R O D        U C T             I O N


                    103 percent of OIG’s volume-weighted AMP from the alternate
                    reimbursement amount for the HCPCS code (106 percent of OIG’s
                    volume-weighted ASP). We then multiplied the differences by the
                    number of services that were allowed by Medicare for each HCPCS code
                    in 2004, as reported in CMS’s Part B Extract and Summary System
                    (BESS).8 This estimate assumes that the volume-weighted ASP for
                    each HCPCS code will remain consistent throughout the year 2005.
                    However, the ASP amounts submitted by manufacturers may actually
                    vary from quarter to quarter.

                    To determine how the differences between OIG’s and CMS’s
                    calculations might affect the results of the mandated comparison
                    between ASPs and AMPs, we then compared the HCPCS codes that met
                    the 5-percent threshold using CMS’s calculation to the codes that met
                    the threshold using OIG’s calculation.

                    This study was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President=s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                    8At the time of extraction, the BESS data were 96 percent complete for HCPCS codes
                     processed by local carriers and 91 percent complete for HCPCS codes processed by the
                     DMERCs.



 OEI-03-04-00430    C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                       7
Δ       F I N D I N G



 ASPs for certain HCPCS codes exceeded AMPs by                   Pursuant to sections
 at least 5 percent; however, the HCPCS codes that               1847A(d)(2)(B) and
met the threshold differed depending on the method               1847A(d)(3) of the Act, OIG
                                                                 must compare ASPs to AMPs
used to calculate volume-weighted ASPs and AMPs
                                                                 and notify the Secretary if the
                      ASP for a particular drug exceeds the AMP by a threshold of 5 percent.
                      However, the HCPCS codes that meet this threshold may differ
                      depending on whether CMS’s method or OIG’s method is used to
                      calculate volume-weighted ASPs and volume-weighted AMPs.
                      According to CMS’s calculation, a total of 51 HCPCS codes had an ASP
                      that exceeded the AMP by at least 5 percent in the third quarter of
                      2004. According to OIG’s calculation, only 38 HCPCS codes met the
                      5-percent threshold.

                      The difference between CMS’s calculation and OIG’s calculation could
                      also affect whether published reimbursement amounts for Medicare
                      Part B drugs are adjusted. Sections 1847A(d)(3)(A) and (B) of the Act
                      grant the Secretary authority to disregard the ASP pricing methodology
                      for a drug with an ASP that exceeds the AMP by at least 5 percent. If
                      that criterion is met, the Secretary has authority to lower the
                      reimbursement amount for the drug to 103 percent of the AMP.9 If
                      reimbursement amounts for the 51 HCPCS codes identified by CMS’s
                      calculation had been lowered to 103 percent of the AMP, Medicare
                      allowances would have been reduced by an estimated $164 million in
                      2005. Although fewer HCPCS codes met the 5-percent threshold using
                      OIG’s calculation, lowering the reimbursement amounts for those
                      38 codes would have actually reduced Medicare allowances by a greater
                      amount—an estimated $172 million in 2005.

                      As shown in Table 1, some HCPCS codes met the 5-percent threshold
                      regardless of whether CMS’s or OIG’s calculation was used. Other
                      codes only met the 5-percent threshold according to one calculation or
                      the other.




                      9Section 1847A(d)(3)(C) of the Act.




    OEI-03-04-00430   C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                         8
F   I N D I N G


                      Table 1: Results of the Comparison Between ASPs and AMPs Using CMS’s and
                      OIG’s Calculations
                                                                                                                                          Number of    Reduction in
                                                                                                                                           HCPCS      Reimbursement
                                                                                                                                           Codes       (in millions)

                        Met 5-percent threshold According to CMS’s Calculation                                                               51           $164

                        Met Threshold According to Both CMS’s and OIG’s Calculations                                                         34           $161

                        Met Threshold According to CMS’s Calculation Only                                                                    17             $3

                        Met 5-percent threshold According to OIG’s Calculation                                                               38           $172

                        Met Threshold According to Both CMS’s and OIG’s Calculations                                                         34           $169

                        Met Threshold According to OIG’s Calculation Only                                                                     4             $3




                       For 34 HCPCS codes, the volume-weighted ASPs exceeded the volume-
                       weighted AMPs by at least 5 percent regardless of whether CMS’s or OIG’s
                       calculation was used
                       According to our analysis, 34 HCPCS codes met the 5-percent threshold
                       using either CMS’s or OIG’s calculation. However, the extent to which
                       ASPs exceeded AMPs may have been different depending on which
                       calculation was used.

                       For example, CMS’s calculation for one HCPCS code resulted in a
                       volume-weighted ASP of $4.82 and a volume-weighted AMP of $4.42.
                       The difference between these two prices is 9 percent, which exceeds the
                       5-percent threshold specified in the Act. According to OIG’s calculation
                       for the same HCPCS code, the volume-weighted ASP should be $3.48
                       and the volume-weighted AMP should be $3.30. Here, the ASP exceeds
                       the AMP by exactly 5 percent. Although this HCPCS code meets the
                       5-percent threshold regardless of which calculation is used, the prices
                       themselves, and the percentage difference between those prices, can
                       vary depending on whether CMS’s or OIG’s method is followed. This, in
                       turn, could affect how much providers would receive in reimbursement,
                       particularly if the reimbursement amount were lowered to 103 percent
                       of the AMP.

                       According to CMS’s calculation, lowering reimbursement for these
                       34 HCPCS codes to 103 percent of the AMP would have reduced
                       Medicare allowances by an estimated $161 million in 2005. Using OIG’s
                       calculation for the same 34 codes, however, would have reduced
                       Medicare allowances by an additional $8 million, for an estimated total
                       of $169 million in 2005.

                       A list of all 34 HCPCS codes is presented in Appendix B.

    OEI-03-04-00430    C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                                                 9
F   I N D I N G


                      Four additional HCPCS codes met the 5-percent threshold using OIG’s
                      calculation but not CMS's calculation
                      For four HCPCS codes, the volume-weighted ASP exceeded the AMP by
                      at least 5 percent using OIG’s calculation but not CMS’s calculation. If
                      the reimbursement amounts for these four codes had been lowered to
                      103 percent of the AMP, we estimate that Medicare allowances would
                      have been reduced by $2.7 million in 2005. These savings can be
                      attributed almost entirely to one code, J0256.10 A list of these four
                      HCPCS codes is presented in Appendix C.
                      Another 17 HCPCS codes met the 5-percent threshold using CMS’s
                      calculation but not OIG's calculation
                      For 17 HCPCS codes, the volume-weighted ASPs exceeded AMPs by at
                      least 5 percent using CMS’s calculation but not OIG’s calculation.
                      Lowering the reimbursement amounts for these 17 HCPCS codes to
                      103 percent of the AMP would have reduced Medicare allowances by an
                      estimated $2.7 million in 2005. The vast majority of these savings can
                      be attributed to three HCPCS codes: J3301, J1080, and J1550.11 A list
                      of all 17 HCPCS codes is presented in Appendix D.




                      10HCPCS code J0256 represents an injection of alpha 1-proteinase inhibitor–human, 10
                        milligrams (mg).
                      11HCPCS code J3301 represents an injection of triamcinolone acetonide, per 10 mg; HCPCS
                       code J1080 represents an injection of testosterone cypionate, 1cc, 200 mg; and HCPCS code
                       J1550 represents an injection of gamma globulin, intramuscular, 10 cc.



    OEI-03-04-00430   C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                         10
E X E C U T I V E                        S U            M M A R Y
Δ    S U M M A R Y                               





                   For the purpose of monitoring new prices based on ASPs, sections
                   1847A(d)(2)(B) and 1847A(d)(3) of the Act mandate that OIG perform
                   comparisons between ASPs and AMPs to identify drugs for which the
                   ASP exceeds the AMP by at least 5 percent. This review is the first of
                   such comparisons. We found that certain HCPCS codes did, in fact,
                   meet the 5-percent threshold specified in the Act. However, the number
                   of codes that met the threshold, and the monetary differences between
                   the ASPs and AMPs for those codes, depended on the method used to
                   calculate volume-weighted ASPs and volume-weighted AMPs. Although
                   34 HCPCS codes met the 5-percent threshold regardless of whether
                   CMS’s or OIG’s calculation was used, other codes only met the threshold
                   using one calculation or the other.

                   Pursuant to section 1847A(d)(3) of the Act, the Secretary has authority
                   to lower the reimbursement amount for a drug with an ASP that
                   exceeds the AMP by the 5-percent threshold. Therefore, differences
                   between the results of CMS’s calculation and OIG’s calculation could
                   affect whether published reimbursement amounts for certain Medicare
                   Part B drugs are adjusted. This, in turn, affects manufacturers,
                   providers, and Medicare beneficiaries. It is therefore critical that CMS
                   modify its calculation as soon as possible, both to ensure that
                   reimbursement amounts are calculated correctly and to ensure that
                   future comparisons between ASPs and AMPs yield the most meaningful
                   results.12


                   AGENCY COMMENTS
                   Overall, CMS indicated that the information in our report is helpful in
                   its continuing efforts to monitor payment adequacy under the ASP
                   methodology. However, CMS noted that OIG’s review was conducted
                   using data submitted during the initial implementation phase of the
                   ASP methodology. According to CMS, much of the estimated savings


                   12Issues with CMS’s calculation of volume-weighted ASP are discussed in greater detail in

                    the OIG report, “Calculation of Volume-Weighted Average Sales Price for Medicare Part B
                    Prescription Drugs” (OEI-03-05-00310). This report found that CMS’s method for
                    calculating volume-weighted ASP is incorrect because CMS does not use billing units
                    consistently throughout its equation. Therefore, OIG recommended that CMS adopt an
                    alternate method for calculating volume-weighted ASP, which does use billing units
                    consistently.



 OEI-03-04-00430   C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                      11
S U M M A R Y


                   identified in the report did not persist in subsequent quarters, and
                   payment limits for many codes have since been revised.

                   Although CMS acknowledges the Secretary’s authority to adjust the
                   ASP payment limits when certain conditions are met, it believes that
                   other issues should be considered, including the timing and frequency of
                   pricing comparisons, stabilization of ASP reporting, the effective date
                   and duration of rate substitution, and the accuracy of the ASP and AMP
                   data.

                   The full text of CMS’s comments can be found in Appendix E.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   This report found that comparisons between ASPs and AMPs yield
                   different results depending on the method used to calculate volume-
                   weighted ASPs and volume-weighted AMPs. Although CMS indicated
                   that our report is helpful, CMS’s comments on the draft report
                   addressed neither the incorrect calculation nor the impact it has on the
                   comparison between ASPs and AMPs. We continue to believe that CMS
                   is calculating volume-weighted ASPs incorrectly, and that this incorrect
                   calculation results in reimbursement amounts that are inaccurate and
                   inconsistent with the ASP payment methodology set forth in section
                   1847A(b) of the Act. Furthermore, we believe that the incorrect
                   calculation affects the results of mandated comparisons between ASPs
                   and AMPs, and could continue to do so in the future.

                   We acknowledge CMS’s concern that our findings should be examined in
                   light of other important considerations. However, we are unsure of
                   what, if any, specific steps CMS plans to take as a result of the report.




 OEI-03-04-00430   C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                      12
A   P   P E N D         I X ~             A
Δ       A P P E N D I X                                     ~           A              


     Equations Used by CMS and OIG to Calculate Volume-Weighted ASPs and AMPs


     1. The Equation Used by CMS to Calculate a Volume-Weighted ASP
        In the following equation, a “unit” is defined as the entire amount of the drug 

        contained in the NDC: 


                                                                                              ASP for NDC                   * Number of NDCs Sold
                  Volume-Weighted ASP                           Sum of
                                                                                       Billing Units in NDC
                   for the Billing Unit of
                       HCPCS Code          =
                                                                                                      Sum of Number of NDCs Sold




     2. The Equation Used by OIG to Calculate a Volume-Weighted ASP
        We suggest that CMS’s calculation should be modified by multiplying the number of
        NDCs sold by the number of billing units in the NDC in both the numerator and
        denominator of the equation:



                                                                         ASP for NDC                    * Number of NDCs Sold * Billing Units in NDC
        Volume-Weighted ASP                    Sum of
                                                                    Billing Units in NDC
         for the Billing Unit of
             HCPCS Code          =
                                                                         Sum of (Number of NDCs Sold * Billing Units in NDC)


         However, the terms “Billing Units in NDC” in the numerator of the equation cancel
         each other out:


                                                                         ASP for NDC                   * Number of NDCs Sold * Billing Units in NDC
        Volume-Weighted ASP         Sum of
                                                                    Billing Units in NDC
         for the Billing Unit of
             HCPCS Code 
        =

                                                                       Sum of (Number of NDCs Sold * Billing Units in NDC)



        Therefore, OIG’s equation is written in the following way:


                  Volume-Weighted ASP                                        Sum of (ASP for NDC * Number of NDCs Sold)
                   for the Billing Unit of =
                       HCPCS Code                                        Sum of (Number of NDCs Sold * Billing Units in NDC)




    OEI-03-04-00430       C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                                    13
Δ   A P P E N D I X                                    ~           B


         Thirty-Four HCPCS Codes With an ASP That Exceeded the AMP by at Least
         5 Percent Regardless of Whether CMS’s or OIG’s Calculation Was Used

         Code        Description

         J0360       Injection, hydralazine HCl, up to 20 mg
         J0470       Injection, dimercaprol, per 100 mg
         J0770       Injection, colistimethate sodium, up to 150 mg
         J1110       Injection, dihydroergotamine mesylate, per 1 mg
         J1180       Injection, dyphylline, up to 500 mg
         J1240       Injection, dymenhydrinate, up to 50 mg
         J1250       Injection, dobutamine, HCl, per 250 mg
         J1364       Injection, erythromycin lactobionate, per 500 mg
         J1940       Injection, furosemide, up to 20 mg
         J1955       Injection, levocarnitine, per 1 g
         J2324       Injection, nesiritide, 0.25 mg
         J2501       Injection, paricalcitol, 1 mcg
         J2545       Pentamidine isethionate, inhalation solution, per 300 mg
         J2675       Injection, progesterone, per 50 mg
         J2690       Injection, procainamide HCl, up to 1 g
         J2730       Injection, pralidoxime chloride, up to 1 g
         J3364       Injection, urokinase, 5,000 IU vial
         J3365       Injection, IV, urokinase, 250,000 IU vial
         J3415       Injection, pyridoxine HCl, 100 mg
         J3487       Injection, zoledronic acid, 1 mg
         J7517       Mycophenolate mofetil, oral, 250 mg
         J7644       Ipratropium bromide, inhalation solution administered through DME, unit dose form, per mg
         J9060       Cisplatin powder or solution, per 10 mg
         J9185       Fludarabine phosphate, 50 mg
         J9202       Goserelin acetate implant, per 3.6 mg
         J9219       Leuprolide acetate implant, 65 mg
         J9300       Gemtuzumab ozogamicin, 5 mg
         J9320       Streptozocin, 1 g
         J9360       Vinblastine sulfate, 1 mg
         J9370       Vincristine sulfate, 1 mg
         J9375       Vincristine sulfate, 2 mg
         J9380       Vincristine sulfate, 5 mg
         Q0164       Prochlorperazine maleate, 5 mg, oral
         Q0175       Perphenazine, 4 mg, oral

          Source: OIG Analysis of the ASP and AMP Data, 2005.




OEI-03-04-00430      C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                        14
Δ   A P P E N D I X                                     ~           C



          Four HCPCS Codes With an ASP That Exceeded the AMP by at Least 5 Percent
          Using OIG’s Calculation but not CMS’s Calculation

            Code                                                                        Description
          J0256    Injection, alpha 1-proteinase inhibitor – human, 10 mg
          J1790    Injection, droperidol, up to 5 mg
          J2993    Injection, reteplase, 18.1 mg

                   Hydroxyzine pamoate, 50 mg, oral, FDA approved prescription anti-emetic, for use as a complete
          Q0178    therapeutic substitute for an IV anti-emetic at the time of chemotherapy treatment, not to exceed
                   a 48-hour dosage regimen

          Source: OIG Analysis of the ASP and AMP Data, 2005.




OEI-03-04-00430       C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                         15
Δ   A P P E N D I X                                    ~           D

          Seventeen HCPCS Codes With an ASP That Exceeded the AMP by at Least
          5 Percent Using CMS’s Calculation but not OIG’s Calculation

          Code        Description

          J1080       Injection, testosterone cypionate, 1 cc, 200 mg
          J1460       Injection, gamma globulin, intramuscular, 1 cc
          J1470       Injection, gamma globulin, intramuscular, 2 cc
          J1480       Injection, gamma globulin, intramuscular, 3 cc
          J1490       Injection, gamma globulin, intramuscular, 4 cc
          J1500       Injection, gamma globulin, intramuscular, 5 cc
          J1510       Injection, gamma globulin, intramuscular, 6 cc
          J1520       Injection, gamma globulin, intramuscular, 7 cc
          J1530       Injection, gamma globulin, intramuscular, 8 cc
          J1540       Injection, gamma globulin, intramuscular, 9 cc
          J1550       Injection, gamma globulin, intramuscular, 10 cc
          J1560       Injection, gamma globulin, intramuscular, over 10 cc
          J1630       Injection, haloperidol, up to 5 mg
          J1885       Injection, ketorolac tromethamine, per 15 mg
          J3301       Injection, triamcinolone acetonide, per 10 mg
          J3410       Injection, hydroxyzine HCl, up to 25 mg
          J3420       Injection, vitamin B-12 cyanocobalamin, up to 1,000 mcg

     Source: OIG Analysis of the ASP and AMP Data, 2005.




OEI-03-04-00430      C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                        16
Δ   A P P E N D I X                                 E

    Comments from the Centers for Medicare & Medicaid Services




OEI-03-04-00430   C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                     17
A P P E N D        I X            ~             E           





 OEI-03-04-00430   C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                      18

Δ   A C K N O W L E D G M E N T S                                                                             


    This report was prepared under the direction of Robert A. Vito, Regional Inspector
    General for Evaluation and Inspections in the Philadelphia regional office, and Linda
    M. Ragone, Deputy Regional Inspector General. Other principal Office of Evaluation
    and Inspections staff who contributed include:

                  Lauren McNulty, Team Leader
                  Edward Burley, Program Analyst

                  Tanaz Dutia, Program Analyst


                  Linda Boone Abbott, Program Specialist





OEI-03-04-00430   C O M PA R I S O N   OF   AV E R A G E S A L E S P R I C E   TO   AV E R A G E M A N U F A C T U R E R P R I C E
                                                                                                                                     19
